OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ETHIOPIA’S
COMPLIANCE WITH
FINANCIAL AUDIT
REQUIREMENTS REGARDING
FOREIGN RECIPIENTS
AUDIT REPORT NO. 4-663-06-009-P
May 31, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General



May 31, 2006


MEMORANDUM


TO:                  USAID/Ethiopia Mission Director, William Hammink

FROM:                RIG/Pretoria, Jay Rollins /s/

SUBJECT:             Audit of USAID/Ethiopia’s Compliance with Financial Audit Requirements
                     Regarding Foreign Recipients (Report No. 4-663-06-009-P)

This memorandum transmits our draft report on the subject audit. In finalizing this
report, we considered management comments on the draft report and have included
those comments, in their entirety, as Appendix II.

The report has seven recommendations to help USAID/Ethiopia improve its financial
audit program with regard to foreign recipients. For Recommendation Nos. 4, 6, and 7,
the Mission provided evidence that corrective actions have been implemented.
Therefore, we consider Recommendation Nos. 4, 6, and 7 to have received final action
upon issuance of this report. For Recommendation Nos. 1, 2, 3, and 5, the Mission
provided agreement, corrective action plans, and target completion dates. Therefore,
we consider that a management decision has been reached for Recommendation Nos.
1, 2, 3, and 5. Please provide the Audit, Performance and Compliance Division
(M/CFO/APC) with evidence of final action in order to close these recommendations.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 4

Audit Findings ................................................................................................................. 5

Did USAID/Ethiopia ensure that planned financial
audits of foreign recipients were performed and submitted
in accordance with USAID rules and regulations? ............................................................ 5

     Audit Reports Not Submitted Within
     Required Timeframe .................................................................................................. 5

     Standard Statement of Work
     Not Used in Every Audit .............................................................................................. 8

Did USAID/Ethiopia ensure that annual audit plans
included all recipients from their award inventory
that required a financial audit? .......................................................................................... 9

     Awards Requiring Closeout Audits Need
     to be Included in Audit Plans..................................................................................... 10

     Host Country Contracts Need to be
     Included in Award Inventories ................................................................................... 12

Evaluation of Management Comments ....................................................................... 14

Appendix I – Scope and Methodology ........................................................................ 15

Appendix II – Management Comments ....................................................................... 17

Appendix III– List of Delinquent Audits as of December 31, 2005 ........................... 21

Appendix IV – List of Expired Awards Requiring Closeout Audits .......................... 22
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria performed this audit to determine whether
USAID/Ethiopia effectively managed its financial audit program in accordance with
USAID policies and procedures for fiscal years 2003, 2004, and 2005. (See page 2.)

USAID/Ethiopia did not effectively manage its financial audit program regarding foreign
recipients during the period covered by the audit. Specifically, USAID/Ethiopia did not
ensure that planned audits of foreign recipients were performed in a timely manner,
delinquent audits were followed up on and completed, or standard statements of work
were used. To help correct and strengthen these problem areas, we recommended that
USAID/Ethiopia 1) develop and implement an audit tracking system to better monitor
and ensure timely submission of planned audits, 2) complete all identified delinquent
audits, and 3) develop a system to ensure that standard statements of work are included
in future audit agreements. (See pages 5 – 9.)

In addition, although USAID/Ethiopia prepared annual audit plans for fiscal years 2003-
2005, those plans were incomplete. Specifically, the plans omitted required closeout
audits for 23 expired awards with amounts totaling $109.6 million. Also, two of the
Mission’s host country contracts were not included in its award inventories. We
recommended that USAID/Ethiopia 1) amend its Mission Order dealing with recipient
audits to ensure that expiring awards requiring closeout audits are included in future
audit plans, 2) obtain and submit audit reports for all expired awards requiring closeout
audits, 3) include identified host country contracts in the current award inventory, and 4)
amend Mission Order 504 to ensure that host country contracts are included in future
award inventories and audit plans. (See pages 9 - 13.)

For Recommendation Nos. 4, 6, and 7, the Mission provided evidence that corrective
actions have been implemented. Therefore, we consider Recommendation Nos. 4, 6,
and 7 to have received final action upon issuance of this report. For Recommendation
Nos. 1, 2, 3, and 5, the Mission provided agreement, corrective action plans, and target
completion dates. Therefore, we consider that a management decision has been
reached for Recommendation Nos. 1, 2, 3, and 5. (See page 14.)




                                                                                         1
BACKGROUND
USAID administers most of its foreign assistance programs by awarding contracts,
grants and cooperative agreements to U.S.-based and foreign organizations. In order to
help ensure accountability over funds given to such organizations, USAID and the Office
of Inspector General (OIG) have jointly developed a financial audit program as outlined
in Automated Directive System (ADS) 591. This section of the ADS requires that USAID
missions, in consultation with the cognizant Regional Inspector General (RIG), ensure
that required financial audits are conducted for foreign for-profit and nonprofit
organizations and host government entities (including any mission-funded activities in
nonpresence countries), and local currency special accounts.

All foreign nonprofit organizations expending more than $300,000 of USAID funds during
their fiscal year are required to have an annual financial audit performed. A closeout
audit is required for recipients expending more than $500,000 throughout the life of an
award. Incurred cost audits must be performed annually of all foreign for-profit
organizations performing under direct awards or cost reimbursable host country
contracts and subcontracts.1 To ensure that such audits are performed in a timely and
acceptable manner, missions are required to develop annual audit plans which are
populated from inventories maintained by the missions of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country owned local currency and activities in nonpresence
countries for use in determining audit requirements.

The audits are normally performed by independent auditors acceptable to the cognizant
RIG office. The audit agreements between recipients and independent auditors contain
a standard statement of work. On occasion, USAID missions may contract directly with
an audit firm to conduct financial audits of foreign recipients or locally-incurred costs of
U.S.-based recipients. Audits of USAID recipients are required to be performed in
accordance with U.S. Government Auditing Standards as well as the OIG’s Guidelines
for Financial Audits Contracted by Foreign Recipients. Missions must ensure that such
audit reports are submitted to the cognizant RIG office for review and issuance no later
than nine months following the end of the audited period.

USAID/Ethiopia is one of the USAID missions in the Eastern and Southern Africa region
with a large number of recipients. In fiscal year 2005, the Mission had 64 non-U.S.-
based recipients.      During fiscal years 2003-2005, the Mission reported budget
authorizations totaling $537.6 million for programs in:

     •   Food Security
     •   Essential Services for Health
     •   Basic Education
     •   Democracy and Governance
     •   Mitigate the Effects of Disaster

1
  In terms of a 2005 revision to ADS 591, there is no automatic requirement for annual incurred cost audits
for foreign for-profit organizations. Instead, Missions are required to annually assess risks to determine
whether financial audits are warranted and the results of these risk assessments must be shared with the
cognizant RIG office.


                                                                                                         2
    •   Anticipate and Manage Shocks
    •   Human Capacity
    •   Governance Capacity
    •   Economic Growth
    •   Knowledge Management

For fiscal year 2003, alone, the actual amount for Public Law 480, Title II program, as
reported in the Congressional Budget Justification, was over $352.2 million.




                                                                                     3
AUDIT OBJECTIVES
An audit of the Mission’s compliance with financial audit requirements regarding foreign
recipients was performed because Regional Inspector General/Pretoria’s (RIG/Pretoria)
experience is that USAID missions in eastern and southern Africa have generally not
been complying with Automated Directives System (ADS) 591 in terms of ensuring that
required financial audits of foreign recipients are conducted in a timely and acceptable
manner. To determine USAID/Ethiopia’s compliance with USAID rules and regulations
regarding financial audits of its foreign recipients, the audit was performed to answer the
following questions:

Objective No. 1: Did USAID/Ethiopia ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with USAID rules and
regulations?

Objective No. 2: Did USAID/Ethiopia ensure that annual audit plans included all
recipients from their award inventory that required a financial audit?




                                                                                         4
AUDIT FINDINGS
Did USAID/Ethiopia ensure that planned financial audits of
foreign recipients were performed and submitted in accordance
with USAID rules and regulations?
USAID/Ethiopia did not ensure that all planned financial audits of foreign recipients2
were performed and submitted in accordance with USAID rules and regulations.

During the last three years, USAID/Ethiopia has made a great deal of progress towards
improving its recipient financial audit program. USAID/Ethiopia has planned for and
submitted its audit inventories and plans to RIG/Pretoria for 2003 - 2005. Since April 30,
2003, RIG/Pretoria has issued 14 financial audit reports of USAID/Ethiopia recipients
covering $13.5 million in expenditures of USAID funds. Those audit reports included
recommendations that addressed $2 million in questioned costs, 20 internal control
weaknesses, and 22 instances of material noncompliance with applicable laws and
regulations.

While the above financial audit work has undoubtedly had a positive effect on
USAID/Ethiopia’s accountability over USAID funds expended by foreign recipients, there
were several areas in which USAID/Ethiopia could improve its recipient financial audit
program including timeliness, follow-up on delinquent audits, and use of a standard
statement of work.


Audit Reports Not Submitted
Within Required Timeframe
Summary: According to Agency regulations, USAID missions must submit audit reports
of foreign recipients to the cognizant Regional Inspector General (RIG) no later than nine
months after the end of the audited period. USAID/Ethiopia submitted 19 of the 37
audits planned for fiscal years 2003 to 2005. All 19 were submitted to RIG/Pretoria after
the required timeframe. This occurred because USAID/Ethiopia had not developed a
system to track and follow up on planned audits. Also, many audit reports had to be
corrected and resubmitted due to noncompliance with applicable standards and
guidelines. Audits that are not completed in a timely manner reduce USAID’s
accountability over funds awarded to recipients.

Automated Directive System (ADS) 591.3.2.1 requires that foreign nonprofit
organizations and host governments that expend $300,000 or more of USAID funds
during their fiscal year must have an annual audit conducted in accordance with the
Office of Inspector General’s Guidelines for Financial Audits Contracted by Foreign
Recipients (Guidelines). Paragraphs 1.16 and 2.3 of the Guidelines spell out the
timeframe within which recipients must submit final audit reports to the cognizant USAID

2
   For the purpose of this audit, foreign recipients include non-U.S.-based grantees and
contractors who were awarded grants, contracts, cooperative agreements and implementation
letters.


                                                                                        5
mission, which, in turn, will forward them to the RIG for review and issuance. According
to the Guidelines, the cognizant RIG must receive the audit report no later than nine
months after the end of the audited period.

USAID/Ethiopia’s annual audit plans prepared for fiscal years 2003, 2004, and 2005
included 37 distinct planned financial audits of 18 different recipients. The breakdown of
the 37 audits is presented in Table 1 below.

                                         Table 1
               Recipient Audits in Annual Plans for Fiscal Years 2003-2005

                   Number of recipients            # of annual          Totals
                                                  audits in plans
                             1                           5                5
                             3                           4                12
                             6                           2                12
                             8                           1                8
                             18                                          37

Only 19 (51 percent) of the 37 audits included in the Mission’s audit plans for fiscal years
2003, 2004, and 2005 had been submitted to RIG/Pretoria as of December 31, 2005.
On average, those audit reports were submitted 237 days (approximately 8 months)
after they were due.

The lack of timeliness was caused by several factors. One of the principal factors was
that the Mission had not developed or implemented an effective tracking system to
ensure that the planned audits were performed and submitted within the required
timeframe. As a result, not only were the majority of planned audits not submitted in a
timely manner, but a number were not submitted at all. For example, only 19 of the 37
audits included in the Mission’s audit plans for fiscal years 2003, 2004, and 2005 had
been submitted to RIG/Pretoria as of December 31, 2005. Twelve audits (listed in
Appendix III) had either not been performed, or, if performed, had not been submitted to
RIG/Pretoria. The remaining six audits were not yet due as of December 31, 2005.

Further evidence that USAID/Ethiopia lacked an effective follow-up system was reflected
by the fact that the Mission’s audit plans for fiscal year 2005 included 9 delinquent
audits3, more than the number of planned audits for fiscal year 2003, as shown in the
following table.




3
 Audit reports that are not received by the cognizant RIG within the timeframe set forth under
paragraph 1.16 of the Guidelines for Financial Audits Contracted by Foreign Recipients are
considered delinquent audits.



                                                                                            6
                                          Table 2
                 Delinquent Audits from USAID/Ethiopia’s Annual Audit Plans

                                       FY 2003         FY 2004          FY 2005           Totals
    # of current audits in plan           7               9               16               32
    # of delinquent audits in plan        0               0                9                9
    Total # of audits in plan             7               9               25               414

In several situations, “catch up” audits were performed that covered multiple years of
expenditures by those recipients. For example, USAID/Ethiopia’s audit plan for fiscal
year 2003 included an audit of fiscal year 2002 expenditures by a recipient under a 5-
year, $1.4 million USAID grant. This recipient was also included in the fiscal year 2004
audit plan. The audits were eventually completed in fiscal year 2004 covering the period
July 1, 1999 to June 30, 2001, amounting to $749,331 in expenditures of USAID funds.
The audit report questioned $21,708 in expenditures and identified three internal control
weaknesses and two instances of material noncompliance with applicable laws and
regulations.

As of December 31, 2005, USAID/Ethiopia had 12 planned audits from fiscal years
2003-2005 that were still delinquent. A list of the awards with delinquent audits is
included as Appendix III in this report.

Another contributing factor was that the audit work did not comply with applicable
standards and regulations. This resulted in audit reports received by RIG/Pretoria that
often had to be sent back to the audit firms for correction or additional work. Although
these reports were eventually corrected and resubmitted to RIG/Pretoria, the additional
work required added to their lack of timeliness. (The cause of substandard audit work
will be addressed in the following section of this report.)

Delayed performance and submission of audit reports reduces USAID’s accountability
over funds awarded to recipients. This also increases the risk that recipients’ financial
records are no longer available for audit, or that their offices may have ceased
operations, making the determination and recovery of potential questioned costs difficult
or impossible. Even when records do exist, or the recipient is still in operation, untimely
audit reports lose their usefulness because management (USAID or recipient) cannot,
based on the reports, implement corrective actions in a timely manner to help prevent
potential fraud, waste and abuse. Total estimated expenditures that have not been
audited as of December 31, 2005 amounted to over $10.4 million.

For the Mission to be able to submit timely audit reports to RIG/Pretoria, it must have a
system to monitor the status of planned audits and dedicated personnel to provide
interventions when targeted milestones are not being met. Therefore, we are making
the following recommendations:

      Recommendation No. 1: We recommend that USAID/Ethiopia develop and
      implement an audit tracking system to monitor the recipient financial audit

4
 Although there was a total of 37 distinct audits in the Mission’s audit plans for fiscal years 2003-
2005, the annual audits of four other recipients were carried forward from one annual plan to the
next without being accomplished bringing the total number of audits listed in all three plans to 41.


                                                                                                    7
   process to ensure timely submission of reports to RIG/Pretoria. This system
   should, at a minimum, include controls to ensure that:
   • appropriate timing targets and milestones are set for each audit in the
      Mission’s current audit plan;
   • audit instructions are sent to recipients prior to the recipient’s fiscal year end
      requesting them to initiate the procurement for the audit;
   • periodic follow-up is performed to determine the implementation status of all
      planned audits; and
   • corrective actions are taken and documented for audits that are not
      progressing as planned.

   Recommendation No. 2: We recommend that USAID/Ethiopia obtain and submit
   all delinquent audit reports.


Standard Statement of Work
Not Used in Every Audit
Summary: Agency policy requires that audit agreements between recipients and
independent auditors contain a standard statement of work (SOW) that incorporates all
the requirements of the OIG Guidelines. Not all of the agreements for financial audits of
USAID/Ethiopia’s recipients contained a standard SOW that was reviewed and approved
by the Mission. This occurred because USAID/Ethiopia did not have a system to ensure
that all audit agreements incorporated standard SOWs. The lack of a standard SOW
has resulted in many audits being rejected by RIG/Pretoria due to lack of compliance
with applicable auditing standards and guidelines.

According to the OIG’s Guidelines for Financial Audits Contracted by Foreign Recipients
(Guidelines), a mandatory reference in ADS 591, USAID missions must ensure that
audit agreements between USAID recipients and independent auditors include a
standard statement of work (SOW) containing all of the requirements of the Guidelines.
To ensure that this requirement is complied with, recipients must send all prospective
audit agreements to the cognizant USAID mission for approval prior to finalization, as
stated in paragraph 1.14 of the Guidelines.

On January 10, 2006, RIG/Pretoria requested USAID/Ethiopia to provide evidence that,
for the last 17 audit reports submitted, the Mission had reviewed and approved audit
agreements between recipients and auditors, and that those agreements contained
USAID’s standard SOW. From the 17 sampled audits, only 4 (24 percent) had a
standard SOW. The other 13 audits did not meet this requirement.

Although the Mission reported ensuring that the audit firms and the auditees received a
copy of the OIG Guidelines, providing auditors and recipients with the Guidelines did not
constitute the required review and approval of the audit agreement. Nor did it ensure
that the standard SOW has been included as part of the audit agreement. In addition,
since some audits were performed for the same recipient in different fiscal years, it
should not be assumed that the standard SOW would still be effective for the following
year. A new SOW should have been approved for each fiscal year audit.




                                                                                          8
The majority of recipient audits were not performed under agreements which included
the standard SOW because USAID/Ethiopia did not have a system in place to ensure
that all audit agreements were reviewed and approved by the Mission prior to the
commencement of the audits. Therefore, the Mission could not ensure that the standard
SOW was incorporated into those audit agreements.

Experience has shown that independent audit firms conducting USAID recipient audits
without a standard SOW typically perform “statutory” audit work in accordance with local
standards. Such audits do not address the unique fieldwork and reporting requirements
of USAID audits relating to such areas as testing expenditures for eligibility, allocability,
and compliance with U.S. laws and regulations. Financial audit requirements for USAID
recipients differ substantially from statutory audit requirements within Ethiopia.
Consequently, audits that are conducted without a Mission-approved agreement
containing the standard SOW, which refers to the audit requirements in the OIG
Guidelines, are less likely to be performed in accordance with U.S. Government Auditing
Standards and/or the OIG Guidelines. This was reflected in the large percentage of
recipient audit reports that RIG/Pretoria rejected due to lack of conformity with those
standards and guidelines. Of the 19 reports submitted to RIG/Pretoria, 9 (47 percent)
were initially rejected due to lack of compliance with applicable standards and
guidelines.

The review and approval of prospective audit agreements, and the inclusion of a
standard SOW in those agreements which references specific USAID audit
requirements, will help prevent audits from being performed that do not comply with U.S.
Government Auditing Standards and/or the OIG Guidelines. Once incorporated into the
audit agreement, the standard SOW becomes binding and should compel the audit firms
to comply with necessary USAID audit requirements. Therefore, we are making the
following recommendation:

   Recommendation No. 3: We recommend that USAID/Ethiopia develop and
   implement a system to ensure that the Mission reviews, approves and maintains
   a copy of an audit agreement containing a standard statement of work that
   incorporates USAID’s audit requirements for every recipient audit covering each
   individual fiscal year .


Did USAID/Ethiopia ensure that annual audit plans included all
recipients from their award inventory that required a financial
audit?
USAID Ethiopia did not ensure that annual audit plans included all recipients from their
award inventories that required a financial audit.

As required by ADS 591.3.4.2, USAID/Ethiopia developed award inventories for fiscal
years 2003, 2004, and 2005 which included the required information for each award,
such as contractor/grantee name, type of organization, award number, amount in U.S.
dollars, start/completion dates, prior audits and period covered, receipt date for required
audits, dates for planned audits, and reason(s) for not including an award in the annual
audit plan. The Mission also developed an annual plan for each of those fiscal years



                                                                                           9
which included 37 distinct audits of foreign recipients receiving awards listed in those
inventories.

Although USAID/Ethiopia prepared the award inventories and related audit plans as
required, not all awards that required audits were included in the audit plans. The
Mission’s audit inventory had several awards that required closeout audits but were not
included in the audit plan. The details of this finding are discussed below.


Awards Requiring Closeout Audits
Need To Be Included In Audit Plans
Summary: Agency policy requires that all awards in excess of $500,000 be subject to a
final closeout audit. USAID/Ethiopia’s annual audit plans omitted 23 expired direct
awards that required closeout audits. This occurred because Mission officials were
unaware that closeout audits were required. As a result, USAID-funded awards totaling
$109.6 million that should have received closeout audits have not.

Automated Directives System (ADS) 591.3.3.2 states that “Contract Information Bulletin
(CIB) 90-12 requires that all awards in excess of $500,000 be subject to a final close-out
audit.” This section of the ADS also states that annual audits, performed in accordance
with the “Guidelines for Financial Audits Contracted by Foreign Recipients” must be
accepted as fulfilling the close-out audit requirements for foreign nonprofit organizations.

The intent of CIB 90-12 was to ensure that awards5 that did not exceed the $300,000
threshold for requiring an annual audit, but that amounted to significant amounts of
expenditures on a cumulative basis, were audited to ensure proper closeout of the
award. The Mission’s award inventories included columns such as “Prior Audits & Dates
Covered” and “Reason not in Audit Plan.” The data from these columns provided
information as to the most recent annual audit prior to the recipient’s award completion
date. This information was used to determine whether a close-out audit was required for
a given recipient.

USAID/Ethiopia’s award inventories for fiscal years 2003, 2004, and 2005 included 8
recipients with 23 expired direct awards over the $500,000 threshold which were not
included in the Mission’s respective annual audit plans. According to the Mission’s
award inventory for fiscal years 2003 – 2005, these expired awards had no recent
annual audits that might have served as closeout audits per ADS 591.3.3.2
Consequently, required closeout audits were not conducted for those awards. A list of
the 23 awards requiring closeout audits is included as Appendix IV in this report. The
following table presents the aging of the unaudited expired awards as of December 31,
2005. As shown in the table, the majority of these awards expired more than five years
ago, indicating that this has been a long-standing problem.




5
 For the purpose of this audit, awards include grants, contracts, cooperative agreements, and
implementation letters.


                                                                                                10
                                        Table 3
                  Aging of Expired Awards Requiring Closeout Audits
                           (years since expiration of award)

     0-1 yr.           2-3 yrs.          4-5 yrs.         Over 5 yrs.         Total
       0                  5                 2                16                23

Mission officials did not include these expired awards in annual audit plans because they
were unaware of the policy regarding closeout audits. The reasons listed in the
Mission’s award inventories for not including such awards in the annual audit plans
included statements such as “Expired Award,” “Directly paid for debt settlement,” and
“Estimated Expenditure less than $300,000.” Also, USAID/Ethiopia’s Mission Order No.
504, Audit and Management Control Review Committee, did not include any procedures
regarding the planning or performance of closeout audits of awards exceeding $500,000.

As a result, 23 expired direct awards that should have received closeout audits remain
unaudited. The amount of USAID funding included in those awards totaled $109.6
million.

Closeout audits are important tools in the control and accountability of USAID funds.
Such audits may be used, among other things, to finalize indirect cost rates and to
determine whether the disposition of USAID-funded assets was properly performed at
the end of a project or activity. A closeout audit of expenditures of USAID funds would
be especially important when a recipient may have expended less than $300,000 in any
single year, but the total award was over $500,000. Such recipients may never have
been subjected to a USAID audit as required. Further, according to ADS 591.3.3.2,
Contract/Grant Officers cannot proceed with the closeout process until final action has
been taken on all audit recommendations. Finally, because they were not included in
the Mission’s audit plans during the period they were due, such audits would not likely
be performed within the required timeframe. We are, therefore, making the following
recommendations:

   Recommendation No. 4: We recommend that USAID/Ethiopia amend its Mission
   Order 504 to ensure that closeout audits of expiring awards in excess of
   $500,000 are included in future audit plans and performed as required.

   Recommendation No. 5: We recommend that USAID/Ethiopia obtain and submit
   audit reports in accordance with Guidelines requirements for all expired awards
   requiring closeout audits.




                                                                                      11
Host Country Contracts Need To Be
Included in Award Inventories
Summary: Agency policy requires missions to maintain an inventory of all awards from
which annual audit plans may be developed. Agency policy also dictates that host
country contracts6 are subject to the same USAID audit requirements as direct contracts.
Two host country contracts, active during fiscal year 2005, were not included in the
Mission’s award inventory. This occurred because Mission officials were not aware that
host country contracts needed to be included in award inventories, or that host country
contracts were subject to USAID audit requirements. Although the two host country
contracts totaling $394,282 were below the audit thresholds, these contracts must still be
included in the Mission’s award inventory.

ADS 591.3.4.2 requires missions to “maintain an inventory of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country-owned local currency, and activities in nonpresence
countries for use in determining audit requirements.” Country Contracting Handbook
section 3.8 states that an audit of non-U.S.-based firms shall be a cost-incurred, financial
audit performed by the principal audit agency to the host country or an independent audit
agency acceptable to USAID Inspector General and as set forth in the Strategic
Objective Agreement (SOAG) or a SOAG Implementation Letter. It further adds that the
Guidelines should be followed in the selection of auditors and that the auditors should
observe the Guidelines in planning, conducting, and reporting the results of the audit.
Moreover, section 3.9 of the Country Contracting Handbook specifically states that “Final
payment to the contractor is withheld until the contractor provides evidence that it has
met all of its obligations under the contract and all required certifications (including
acceptance of the work by the Contracting Agency) have been executed and the
contract has been audited, as provided above. The USAID Activity Manager will be
notified of contract closeout and contract files will be maintained in storage at least three
years from the final disbursement under the SOAG.” (emphasis added)

RIG/Pretoria obtained a list of USAID-funded host country contracts from
USAID/Ethiopia that were active during the fiscal years 2003-2005. A comparison of this
list to the Mission’s award inventories revealed that two of the host country contracts,
with amounts totaling $394,282, were not included in the award inventory as shown in
the following table:

                                            Table 4
                     Host Country Contracts Not Included in Award Inventory

                                                   Recipient’s            Award Amount
                   Award Number                  Fiscal Year End            (In US $)
                     IL-663-04-01                    9/30/2005                        285,063
                   IL-663-0080-20                    2/1/2006                         109,219
                         Total                                                        394,282


6
  ADS Glossary defines Host Country Contracting as “A means of program implementation in which USAID
finances, but is not a party to, contractual arrangements between the host country and the supplier of goods
and/or services.” ADS 301.5.1a states that when USAID decides to use host country contracting procedures
– it acts as financier and not a contracting party, reserving certain rights of approval and activity monitoring.


                                                                                                             12
This occurred because Mission officials were unaware that host country contracts should
have been included in the Mission’s award inventories and considered for potential
financial audits. Consequently, two host country contracts, with amounts totaling
$394,282 were not included in the Mission’s award inventory and were not considered
for inclusion in the Mission’s annual audit plan for receiving potential financial audits.

To prevent the omission of host country contracts from the Mission’s award inventories,
and possibly the annual audit plans, in the future, we are making the following
recommendations:

   Recommendation No. 6: We recommend that USAID/Ethiopia include all host
   country contracts in its award inventory for fiscal year 2006.

   Recommendation No. 7: We recommend that USAID/Ethiopia amend Mission
   Order 504 to include procedures for including host country contracts in award
   inventories and annual audit plans, as appropriate.




                                                                                       13
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Ethiopia agreed with all seven recommendations.
For Recommendation Nos. 4, 6, and 7, the Mission provided evidence that corrective
actions have been implemented. Therefore, we consider Recommendation Nos. 4, 6,
and 7 to have received final action upon issuance of this report.

For Recommendation Nos. 1, 2, 3, and 5, the Mission provided agreement, corrective
action plans, and target completion dates. Therefore, we consider that a management
decision has been reached for Recommendation Nos. 1, 2, 3, and 5.




                                                                                   14
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria performed this audit in accordance with
generally accepted government auditing standards. The audit was performed at the
office of the Regional Inspector General in Pretoria, South Africa during the period
December 14, 2005 though March 10, 2006.

The audit covered financial audit requirements for USAID/Ethiopia’s awards to non-U.S.-
based recipients during fiscal years 2003, 2004, and 2005.

The type of evidence examined during the audit included, but was not limited to, award
inventories and audit plans submitted by the Mission for fiscal years 2003-2005,
RIG/Pretoria’s Audit Management Database and archives, and correspondence from the
Mission.

For the most part, we relied on the accuracy and completeness of the award inventories
that were submitted by the Mission to RIG/Pretoria because we believe that the
responsibility for preparing award inventories rests with the Mission’s Audit Management
Officer, who should have the technical capacity to prepare reliable award inventories.
The primary focus of our audit was the development and execution of the annual audit
plans from those award inventories. Thus, with few exceptions, we limited our
procedures to determine whether data in the award inventories were properly used to
develop the audit plans and whether those audit plans were executed in an acceptable
and timely manner. We recognize the limitations of our reliance on the accuracy and
completeness of the award inventories, and hereby disclose this in the audit report--the
primary limitation being that all awards requiring a financial audit may not have been
included in the Mission’s award inventories. Further, expiration dates and total amounts
of awards in inventories may not have been accurate.

With regard to internal controls, we assessed:

•   award inventories;
•   audit plans; and
•   mission orders regarding financial audits.


Methodology
To accomplish the audit objectives, we reviewed and analyzed the annual audit plans
and award inventories submitted to RIG/Pretoria for fiscal years 2003, 2004 and 2005 for
USAID/Ethiopia. We compared audit reports actually submitted to RIG/Pretoria to
planned audits listed in the Mission’s audit plans in order to determine the timeliness of
the submission. We compared the audit plans to the award inventories to determine the
accuracy of the audit plans. To determine recipients requiring closeout audits, we
reviewed the Mission’s award inventories and selected awards above $500,000 that
were not subject to an annual audit in the eleven-month period prior to the program



                                                                                       15
                                                                            APPENDIX I


completion date. The audit also included a review of correspondence between
RIG/Pretoria and the Mission regarding award inventories and annual audit plans. We
also requested additional information from the Mission when required.

For materiality thresholds, we considered the following to be material:

•   timeliness of submission of audit reports - if the number of acceptable audit reports
    submitted after the 9-month due date was > 10 percent of the number of planned
    audits, we considered the lack of timeliness to be material;

•   delinquent audit reports – any number of delinquent planned audit reports was
    considered to be material; and

•   completeness and accuracy of audit plans – any number of required audits not
    included in the audit plans was considered to be material.

This was one of a total of nine similar audits that we are performing of USAID missions
within the eastern and southern Africa region. As RIG/Pretoria already possesses most
of the information needed to conduct the audits, we did not consider travel to the
locations of the respective missions to be necessary. Any questions regarding audit
procedures or preliminary results were handled via email or telephone.




                                                                                      16
                                                                                     APPENDIX II



MANAGEMENT COMMENTS



Date:            May 15, 2006

To:              Jay Rollins, Regional Inspector General

From:            William Hammink, USAID/Ethiopia Director /s/

Subject:         Mission Comments on Report No. 4-663-06-XXX-P (Audit of
                 USAID/Ethiopia’s Compliance with Financial Audit Requirements
                 Regarding Foreign Recipients)


This memorandum contains USAID/Ethiopia’s comments on the subject audit
report transmitted on March 30, 2006. We appreciate the auditors’ assessment
and assistance in strengthening the Mission’s financial audit systems during the
past three years. Per review of the subject audit report, the following is
USAID/Ethiopia’s management response and plan of action.

Recommendation No. 1: We recommend that USAID/Ethiopia develop and
implement an audit tracking system to monitor the recipient financial audit
process to ensure timely submission of reports to RIG/Pretoria. This
system should, at a minimum, include controls to ensure that:
   - appropriate timing targets and milestones are set for each audit in
      the Mission’s current audit plan;
   - audit instructions are sent to recipients prior to the recipient’s fiscal
      year end requesting them to initiate the procurement for the audit;
   - periodic follow-up is performed to determine the implementation
      status of all planned audits; and
   - corrective actions are taken and documented for audits that are not
      progressing as planned.



U.S. Agency for International Development
Riverside Building
off Olympia /Haile G.Selassie       Tel. : 251-11-5510088            USA Address:
P. O. Box 1014                      Fax : 251-11-5510043             2030 Addis Ababa Place
Addis Ababa, Ethiopia               Website: www.usaidethiopia.org   Washington, DC 20521-2030



                                                                                                 17
                                                                     APPENDIX II




Management Response:
The Mission already has an audit/assessment management plan that addresses
most of the points made in the above recommendation, and agrees with the
above recommendation to strengthen the Mission’s existing audit/assessment
management plan. An additional column has been added to the plan to facilitate
the monitoring of transmission of audit instructions to the auditees prior to the
recipient’s fiscal year end. USAID/Ethiopia will request closure of this
recommendation from M/APC once the audit/assessment management plan has
been updated for the FY 2006 audits. The Mission plans on completing final
action by August 31, 2006.

Recommendation No. 2: We recommend that USAID/Ethiopia obtain and
submit all delinquent audit reports.

Management Response:
The Mission agrees to complete the submission of the delinquent audit reports
identified in Appendix III, or to provide the necessary documentation to M/APC as
to why specific audit reports are not required. Four of the twelve audit reports
listed in Appendix III have been submitted to RIG/Pretoria and the Mission
anticipates that final action on the remaining reports will be completed by
November 30, 2006.

Recommendation No. 3: We recommend that USAID/Ethiopia develop and
implement a system to ensure that the Mission reviews, approves and
maintains a copy of an audit agreement containing a standard statement of
work that incorporates USAID’s audit requirements for every recipient audit
covering each individual fiscal year.

Management Response:
The Mission agrees with this audit recommendation, and believes that the
necessary actions have been initiated. A column has been added to the
Mission’s existing audit/assessment management plan to assist in verifying that a
copy of each audit agreement containing the USAID approved standard
statement of work is on file. (Please see attached.) The Mission will request
closure of this recommendation from M/APC once this information has been
completed for the FY 2005/2006 audits. The Mission plans on completing final
action by August 31, 2006.

Recommendation No. 4: We recommend that USAID/Ethiopia amend its
Mission Order No. 504 to ensure that closeout audits of expiring awards in
excess of $500,000 are included in future audit plans and performed as
required.




                                                                               18
                                                                     APPENDIX II


Management Response:
In compliance with the above audit recommendation, Mission Order No. 504 has
been amended to include specific reference to the requirement for closeout
audits (please see attached Mission Order). USAID/Ethiopia believes the
necessary action has been taken to resolve this recommendation, and requests
closure of this audit recommendation upon issuance of the final audit report.

Recommendation No. 5: We recommend that USAID/Ethiopia obtain and
submit audit reports in accordance with Guidelines requirements for all
expired awards requiring closeout audits.

Management Response:
The Mission agrees with the need to obtain and submit audit reports in accordance
with the Guidelines’ requirements for expired awards requiring closeout audits. Of
the 23 awards listed as requiring closeout audits in Appendix IV, 16 are from the
time period 1993 – 1998. Therefore, the Mission has focused on the seven awards
in Appendix IV that date from 2001 to 2004. Upon researching these seven awards,
it appears that none of the seven required closeout audits. To facilitate RIG/P’s
future reviews, USAID/Ethiopia will do a better job in the future of documenting the
audit inventory when closeout audits are not required. To close this
recommendation, the Mission will either provide the audit reports or provide the
supporting documentation as to why closeout audits are not required to M/APC for
the seven awards in Appendix IV that date from 2001 to 2004. The Mission
anticipates that final action will be completed by June 30, 2006.

Recommendation No. 6: We recommend that USAID/Ethiopia include all
host country contracts in its award inventory for fiscal year 2006.

Management Response:
USAID/Ethiopia concurs, and is in compliance, with this recommendation. The
Mission does not differentiate between host country and non-host country
contracts when preparing audit inventories. A review of the two host country
contracts that are listed as having been improperly excluded in the FY 2005
award inventory indicates that these two host country contracts were not funded
agreements at the time of submission of the fiscal year 2005 award inventory.
IL-663-04-01 was finalized in August, 2005 and IL-663-0080-20 was not signed
by the Government of Ethiopia until February, 2005. (Please see attachments.)
Both these awards were included in the Mission’s FY 2006 audit inventory which
was submitted to RIG/P. USAID/Ethiopia believes the necessary action has
been taken to resolve this recommendation, and requests closure of this audit
recommendation upon issuance of the final audit report.

Recommendation No. 7: We recommend that USAID/Ethiopia amend
Mission Order 504 to include procedures for including host country
contracts in award inventories and annual audit plans, as appropriate.




                                                                              19
                                                                     APPENDIX II


Management Response:
As documented under Recommendation No. 6, the statement that “Mission
officials were unaware that host country contracts should have been included in
the Mission’s award inventories and considered for potential financial audits” is
inaccurate. However, in order to facilitate inclusion of host country contracts in
Mission award inventories, Mission Order No. 504 has been amended to include
specific reference to the requirement for including host country contracts in
award inventories and annual audit plans, as appropriate (please see attached
Mission Order). USAID/Ethiopia believes the necessary action has been taken to
resolve this recommendation, and requests closure of this audit recommendation
upon issuance of the final audit report.

The Mission appreciates the opportunity to respond to this audit report and to share
with you the actions USAID/Ethiopia is taking to address the above audit
recommendations.




                                                                               20
                                                                                APPENDIX III



    LIST OF DELINQUENT AUDITS
     AS OF DECEMBER 31, 2005

                                                                                    # of Days
                                    Recipient’s   Total Amount    Estimated       Between Audit
                                    Fiscal Year     of Award        Annual         Report Due
                                        End         (in US $)    Expenditures       Date and
             Award Number7                                        (in US $)8        12/31/05

    1   IL-663-0019-09;
        IL-663-0070-16                 7/7/2004       488,108          138,252             268
    2   IL-663-0019-11;
         IL-663-0070-16               7/7/2004         371,480         245,371             268
    3   IL-663-0110-04, 7 & 8        6/30/2004         750,087         439,035             275
    4   FSP-A-00-98-00032-05        12/31/2004       1,054,930         354,666              92
    5   LSGA-663-03-02                7/7/2004       4,000,000       4,000,000             268
    6   IL-663-0110-02
        IL-663-0110-1                 7/7/2004        316,527          151,364             268
    7   LSGA-663-03-03                7/7/2004        400,000          400,000             268
    8   IL-663-0080-17;
        IL-663-0080-18;
        IL-663-0017-09 &
        IL-663-0080-06                 7/7/2004       665,234          325,539             268
    9   PIL663-0015-28; IL-663-
        0015-39 & IL-663-0090-4        7/7/2003      1,307,343       1,307,343             633
10      PIL663-0015-26; IL-663-
        0090-3 & PIL663-0015-28     12/31/2003        808,037          808,037             457
11      663-A-00-03-00352; 663-
        A-00-02-00366; FFP-A-00-
        03-00-49-05; 663-A-00-03-
        00354; FFP-A-00-03-
        00004-07& DFD-G-00-04-
        0162                        12/31/2004      10,695,679       2,048,142                 92
12      663-A-00-02-00321 & 663-
        0015-A-00-5010-00            6/30/2004       4,692,927       2,918,844             275

        Totals                                      25,550,352      13,136,593            3,432




7
  ADS 591.3.2.1 requires a foreign recipient to have a single audit performed when it has
expended over $300,000 of USAID funds. This audit should include all awards from which those
funds were disbursed during the period audited. USAID/Ethiopia had recipients with several
awards.
8
  The Mission’s audit plans for fiscal years 2003-2005 provided the estimated annual
expenditures.


                                                                                          21
                                                                                    APPENDIX IV



       LIST OF EXPIRED AWARDS
         REQUIRING CLOSEOUT
                AUDITS

                                          Award        Total Amount        # of Days Between
                                        Completion       of Award           Audit Report Due
               Award Number               Date∗          (in US $)         Date and 12/31/05

 1     PIL-663-0007-93-05                6/30/1993             500,000                      4,293
 2     GR-6630003.00-92-01               9/27/1993           1,000,000                      4,204
 3     GR-6630003-92-02                   8/7/1995           2,000,000                      3,525
 4     GR-663-T-601E                      8/7/1995           8,395,000                      3,525
 5     PIL9681007.63-20                   6/8/1996             973,680                      4,293
 6     PIL9681007.63-22                  6/30/1996           1,038,675                      3,197
 7     PIL-663-0014-07                   3/14/1998           8,000,000                      2,575
 8     PIL-663-0016-06                   9/30/1998           5,000,000                      2,375
 9     623-0002-A-00-2108-00             9/30/1993             526,446                      4,201
10     663-C-00-01-00374                 9/21/2001             930,053                      1,288
11     663-C-00-01-00368                 9/30/2001             652,261                      1,279
12     663-0015-A00-5010-00              6/30/2002           2,884,820                      1,006
13     IL-663-0080-05                    6/30/2003           2,500,000                        641
14     PIL-663-0014-15                   6/30/2003           8,000,000                        641
15     663-A-00-02-00381                 March 31              636,981                        789
16     663-A-00-02-00321                 2/3/2004            1,025,142                        423
17     DRA-663-T-601B                    8/31/1993          15,003,000                      4,231
18     DRA-663-T-601C                    8/31/1993           4,051,000                      4,231
19     DRA-663-T-601D                    8/31/1993           4,051,000                      4,231
20     DRA-663+T-0601                    9/30/1993           5,000,000                      4,201
21     DRA-663-T-0601                    9/30/1993           1,339,000                      4,201
22     DRA-663-T-0601A9                  9/30/1993          28,637,828                      4,201
23     DRA-663-T-604                     8/10/1996           7,500,000                      3,156


       Total                                               109,644,886                     70,908




∗
    This information was obtained from the Mission’s award inventory for fiscal years 2003-2005.
9
 This award was presented in the Mission’s award inventory with two different award amounts,
which were combined in this appendix.


                                                                                                   22
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
